                   March 20, 2007

                   JUDITH W. HERRICK
                   SENIOR PLANT MANAGER, SOUTH JERSEY
                   PROCESSING AND DISTRIBUTION CENTER

                   SUBJECT:     Management Advisory – Color-Coding of
                                Standard Mail at the South Jersey Processing
                                and Distribution Center
                                (Report Number NO-MA-07-001)

                   This report presents the results of our review of color-coding
                   of Standard Mail® at the South Jersey Processing and
                   Distribution Center (P&DC), Bellmawr, New Jersey (Project
                   Number 07XG004NO000). The primary objective of the
                   review was to determine whether color-coding of Standard
                   Mail conformed to the U.S. Postal Service’s National Color-
                   Code Policy. We also examined whether the Postal Service
                   conformed to color-coding best practices. This is the third in
                   a series of reviews addressing the color-coding of Standard
                   Mail.

                   We made three recommendations in the report.
                   Management agreed with our recommendations and has
                   initiatives in progress, completed, or planned addressing the
                   issues in this report. Management’s comments, in their
                   entirety, are included in Appendix B.

Results in Brief   The South Jersey P&DC generally color-coded Standard
                   Mail according to the Postal Service’s National Color-Code
                   Policy. We found that out of 780 Standard Mail containers:

                       •   734 (or about 94 percent) were tagged with the
                           correct color code on arrival and processed with the
                           original tag on a timely basis.

                       •   46 (or about 6 percent) did not conform to Postal
                           Service policy.
Color-Coding of Standard Mail at the South Jersey                                NO-MA-07-001
 Processing and Distribution Center


                             In addition, 143 of the 734 (or about 19.5 percent)
                             containers with correct color codes had incomplete tags.

                             These conditions mostly resulted from employee inattention
                             to detail. Also, management did not provide the necessary
                             oversight to ensure that craft employees complied with the
                             color-code policy. While the facility’s Managers of
                             Distribution Operations (MDO) and Supervisors of
                             Distribution Operations (SDO) had recently received color-
                             code training, management had not provided this training for
                             craft employees.

                             When Standard Mail is not color-coded, the Postal Service
                             cannot ensure its timely processing, dispatching, and
                             delivery; and readily track service standards to ensure
                             compliance. Without a date and time on the tag, the Postal
                             Service cannot determine whether employees processed
                             Standard Mail using the first in, first out (FIFO) method.
                             Furthermore, when an operation does not meet its clearance
                             time, facility managers cannot determine what role the
                             arrival time played.

Background                   The Postal Service uses a system of color-coding to
                             facilitate the timely processing, dispatch, and delivery of
                             Standard Mail to meet established service standards. The
                             purpose of color-coding is to sequence the mail to ensure
                             FIFO processing.

                             Postal Service policy requires a color-code tag on all
                             Standard Mail, regardless of where the Postal Service
                             receives it. This code represents the targeted day for
                             clearing the mail from operations or delivering it. P&DC
                             employees generally use colored placards or tags to code
                             this mail. The illustration below shows an example of a
                             color-code tag used by mail handlers at the South Jersey
                             P&DC.




                                                    2
Color-Coding of Standard Mail at the South Jersey                                                       NO-MA-07-001
 Processing and Distribution Center




                                   Illustration 1: Sample of South Jersey Color-Code Tag

                                 The orange tag in Illustration 1 indicates that the mail will be
                                 cleared on a Tuesday. The tag also provides space for
                                 entering the class of mail and the arrival day and time.

                                 The color code applied depends on the mail’s arrival time
                                 at the facility in relation to the facility’s Critical Entry Time
                                 (CET) for Standard Mail.1 The Postal Operations Manual
                                 (POM), Section 458, sets the National Color-Code Policy for
                                 Standard Mail.

                                 For P&DCs, all outgoing, area distribution center (ADC),2
                                 sectional center facility (SCF),3 incoming primary, and
                                 carrier route mail must be color-coded to indicate scheduled
                                 clearance 1 day after receipt at the facility, as shown in
                                 Table 1 below.




1
  CET is the latest time mail can enter an operation if it is to complete processing by the planned clearance time.
2
  An ADC is a postal facility that receives, processes, and distributes mail destined for specific ZIP Code areas under
the Managed Mail Program.
3
  An SCF is a postal facility that serves as a distribution and processing center for post offices in designated
geographic areas as defined by the first three digits of the ZIP Code of those offices.




                                                           3
Color-Coding of Standard Mail at the South Jersey                                   NO-MA-07-001
 Processing and Distribution Center



                                             Table 1. 1-Day Clearance Matrix

                                     Receipt Day        Color Code       Clearance Day
                                      Saturday            White              Sunday
                                       Sunday              Blue             Monday
                                       Monday            Orange             Tuesday
                                      Tuesday             Green           Wednesday
                                     Wednesday            Violet            Thursday
                                      Thursday            Yellow             Friday
                                       Friday              Pink             Saturday

                             After the facility completes processing within the plant, it
                             removes the color code for the clearance day before
                             dispatch.

                             Some Standard Mail receives subsequent incoming
                             secondary distribution at the facility performing the ADC or
                             SCF operation. This mail receives a 2-day color code based
                             on arrival time or its identification and extraction during the
                             initial distribution operation, as shown in Table 2 below.

                                              Table 2. 2-Day Delivery Matrix

                                      Arrival or
                                    Extraction Day      Color Code        Delivery Day
                                     Saturday and
                                                           Orange            Tuesday
                                        Sunday
                                       Monday              Green           Wednesday
                                       Tuesday             Violet           Thursday
                                      Wednesday            Yellow            Friday
                                       Thursday             Pink            Saturday
                                        Friday              Blue            Monday

                             The delivery day color code remains on the mail until
                             delivery.

                             Postal Service policy requires P&DC managers to develop
                             local procedures to ensure employees apply and maintain
                             the correct color code on the mail based on its arrival time
                             on Postal Service property. Postal Service facilities use
                             color-coding to determine what mail did not meet their
                             operating plans for the daily mail condition report.




                                                    4
Color-Coding of Standard Mail at the South Jersey                                      NO-MA-07-001
 Processing and Distribution Center



                                 The Postal Service’s Mail Condition Reporting System is a
                                 repository for information related to mail processing
                                 conditions, including operating plan failures and delayed
                                 mail volumes. Each facility takes a daily inventory of these
                                 conditions by counting on-hand mail volume in conjunction
                                 with the facility's operating plan, generally immediately after
                                 clearance times.

Objective, Scope,                The primary objective was to determine whether color-
and Methodology                  coding of Standard Mail at the South Jersey P&DC followed
                                 the Postal Service’s National Color-Code Policy. We also
                                 examined whether the Postal Service followed best
                                 practices for color-coding.

                                 To determine whether Standard Mail in the facility followed
                                 the National Color-Code Policy, we:

                                      •   Observed 780 containers of Standard Mail, including
                                          containers arriving in the facility 1 hour before and
                                          after CET4 and mail being prepared for processing.

                                      •   Interviewed the plant manager, an in-plant support
                                          operations specialist, and six MDOs or SDOs from all
                                          tours.

                                      •   Reviewed the Standard Mail volume at the South
                                          Jersey P&DC from October 23–27, 2006.

                                 Although not in our original scope, we also observed:

                                      •   Clearance time counts of on-hand Standard Mail.

                                      •   Preparation of the Daily Mail Condition Report from
                                          actual hand counts to the finished product.

                                 We conducted this review from October 2006 through March
                                 2007 in accordance with the President’s Council on Integrity
                                 and Efficiency, Quality Standards for Inspections. We
                                 discussed our observations and conclusions with
                                 management officials and included their comments where
                                 appropriate.


4
    CET for Standard Mail at the South Jersey P&DC was 1700 hours (5:00 p.m.).




                                                         5
Color-Coding of Standard Mail at the South Jersey                                  NO-MA-07-001
 Processing and Distribution Center




Prior Audit Coverage We have issued two audit reports on the color-coding of
                     Standard Mail.

                                 •    Color-Coding of Standard Mail at the Portland,
                                      Oregon Processing and Distribution Center (Report
                                      Number NO-MA-06-003, dated September 26, 2006).
                                      The Portland P&DC generally color-coded Standard
                                      Mail according to the Postal Service’s National Color-
                                      Code Policy. We noted a few instances where color-
                                      coding did not conform to postal policy or best
                                      practices; however, we did not consider these
                                      exceptions significant. Management agreed with the
                                      recommendations and their actions, taken or planned,
                                      should correct the issues identified in the finding.

                                 •    Color Coding of Standard Mail at the Margaret L.
                                      Sellers Processing and Distribution Center (Report
                                      Number NO-MA-06-004, dated September 28, 2006).
                                      The Margaret L. Sellers P&DC generally color-coded
                                      Standard Mail according to the Postal Service’s
                                      National Color-Code Policy. We found that 92
                                      percent of Standard Mail containers observed (638
                                      out of 697) did have the correct color-code tag.
                                      However, not all of the 638 color-code tagged
                                      containers tagged conformed to postal policy or best
                                      practices with regard to completion of the time and
                                      date requirements on the tag. Management agreed
                                      with the findings and their actions, taken or planned,
                                      should correct the issues identified in the report.




                                                    6
Color-Coding of Standard Mail at the South Jersey                                                    NO-MA-07-001
 Processing and Distribution Center




Color-Coding of                 The South Jersey P&DC generally color-coded Standard
Standard Mail                   Mail according to the National Color-Code Policy.5
                                Specifically, 734 of 780 observed Standard Mail containers
                                (or about 94 percent) were tagged with the correct color-
                                code on arrival and processed in a timely manner with the
                                original tag using FIFO.

                                However, color-coding on 46 of the 780 Standard Mail
                                containers that we observed (or about 6 percent) did not
                                conform to Postal Service policy. In addition, 143 of the
                                734 Standard Mail containers coded with the correct color
                                did not conform to best practices.6 We describe some of
                                these exceptions below and list them in their entirety in
                                Appendix A.

                                Conformance to Policy – 32 of the 780 Standard Mail
                                containers observed (4.1 percent) had no evidence of color-
                                coding. See Illustration 2 below.




                                                Illustration 2: No Color-Code Tags



5
  The on-hand Standard Mail volume at the P&DC for the 5 days of observations (October 23 through 27, 2006) was
about 8.6 million pieces.
6
  Network Operations Management Service Review of Processing Facilities in the North Florida Jacksonville District,
dated January 2006, discusses best practices for color-coding.




                                                         7
Color-Coding of Standard Mail at the South Jersey                                NO-MA-07-001
 Processing and Distribution Center


                             Fourteen containers were incorrectly labeled with yellow
                             delivery tags for Friday (2-day) delivery rather than violet
                             tags for Thursday clearance. Illustration 3 shows containers
                             with the wrong color tags at about 11:30 p.m. on
                             October 24, 2006. After we brought this to the attention of
                             the supervisor on duty, the tags were correctly changed to
                             violet. Illustration 4 shows one container properly color-
                             coded at 1:30 a.m. on October 25, 2006.




                                         Illustration 3: Wrong Color-Code Tags




                                                    8
Color-Coding of Standard Mail at the South Jersey                                NO-MA-07-001
 Processing and Distribution Center




                                          Illustration 4: Corrected Color-Code Tags


                           Conformance to Best Practices – Of the 734 containers
                           observed, 143 had incomplete tags. We found that 68 tags had
                           no arrival date and time on them and 75 had no arrival time on
                           them. See Illustrations 5 and 6 below. While the Postal
                           Service’s national policy does not explicitly require placing the
                           date and time on the color-code tag, this best practice helps mail
                           handlers ensure compliance with the FIFO process.




                                                    9
Color-Coding of Standard Mail at the South Jersey                                 NO-MA-07-001
 Processing and Distribution Center




                                         Illustration 5: No Date or Time on Tag




                                        Illustration 6: Date (but no Time) on Tag




                                                    10
Color-Coding of Standard Mail at the South Jersey                                          NO-MA-07-001
 Processing and Distribution Center


                                    The Postal Service has well-established criteria in place for
                                    color-coding. POM 458.1a, 1b, and 2a require facilities to
                                    code all Standard Mail with the color representing the day
                                    the mail is scheduled to be delivered or cleared from
                                    operations, and to select the color code based on the mail’s
                                    arrival time. POM 458.321a also requires facilities to
                                    develop local procedures to ensure they maintain the correct
                                    color code based on when the mail arrives on the premises.7

                                    Section 458, while not explicitly requiring facilities to record
                                    the mail arrival date and time on a tag, clearly implies that
                                    mail handlers should record the information. In addition,
                                    recording the date and time on the tag is a best practice that
                                    assists mail handlers in working Standard Mail in a FIFO
                                    process. Further, headquarters operations specialists who
                                    perform field service reviews indicated that when a tag is
                                    adopted by a facility it constitutes a local procedure that
                                    must be followed. Thus, when a facility adopts a tag that
                                    provides for recording the date and time of arrival,
                                    employees should complete the tag with this information.

                                    These conditions mostly resulted from employee inattention
                                    to detail. Also, management did not provide the necessary
                                    oversight to ensure that craft employees were in compliance
                                    with the color-code policy. While the facility’s MDOs and
                                    SDOs had received color-code training, management did not
                                    provide it for craft employees.

                                    When Standard Mail is not color-coded, the Postal Service
                                    cannot ensure its timely processing, dispatching, and
                                    delivery, and readily track service standards to ensure
                                    compliance. Without a date and time on the tag, the Postal
                                    Service cannot determine whether employees processed
                                    Standard Mail using the FIFO method. Furthermore, when
                                    an operation does not meet its clearance time, facility
                                    managers cannot determine what role the arrival time
                                    played.




7
    Arrival refers to the day and time the mail arrives on Postal Service property.




                                                             11
Color-Coding of Standard Mail at the South Jersey                                 NO-MA-07-001
 Processing and Distribution Center


Recommendations              We recommend the Senior Plant Manager, South Jersey
                             Processing and Distribution Center:

                                 1. Ensure employees conform to Postal Service color-
                                    coding policy and supervisors oversee the proper
                                    color-coding of Standard Mail.

                                 2. Provide additional training on color-coding
                                    procedures to craft employees.

                                 3. As a best practice, ensure that employees date and
                                    time stamp the color-code tags when mail arrives, as
                                    applicable.

Management’s                 Management agreed with our finding and recommendations.
Comments                     Management agreed to correct deficiencies in the color-
                             coding of Standard Mail by providing training for craft
                             employees, using FIFO practices to process mail, and
                             conducting daily audits to ensure the completion of color-
                             code tags.

Evaluation of                Management’s comments are responsive to the finding and
Management’s                 recommendations 1, 2, and 3. Management’s actions taken
Comments                     or planned should correct the issues identified in the report.

                             We appreciate the cooperation and courtesies provided by
                             your staff during the review. If you have any questions or
                             need additional information, please contact Robert J. Batta,
                             Director, Network Processing, or me at (703) 248-2100.
                               E-Signed by Colleen McAntee
                              ERIFY authenticity with ApproveI



                             Colleen A. McAntee
                             Deputy Assistant Inspector General
                              for Mission Operations

                             Attachments




                                                    12
Color-Coding of Standard Mail at the South Jersey         NO-MA-07-001
 Processing and Distribution Center



                             cc: Patrick R. Donahoe
                                 Anthony M. Pajunas
                                 Megan Brennan
                                 David E. Williams, Jr.
                                 Joanna B. Korker
                                 Deborah A. Kendall




                                                    13
Color-Coding of Standard Mail at the South Jersey                                                   NO-MA-07-001
 Processing and Distribution Center



                                               APPENDIX A

                        SUMMARY OF COLOR-CODE OBSERVATIONS
    Action Tested             Criteria            What Was Found                   Exceptions                  Impact

    Did employees        POM 458.1a.           Observations during          Of 780 observed                Minimal
    color-code                                 all three tours for the      containers, 46 (5.9
    Standard Mail                              period October 23-           percent) were not
    on its arrival at                          26, 2006, revealed           coded with the correct
    the South                                  that the South Jersey        color – 32 containers
    Jersey P&DC?                               P&DC generally               were not color-coded
                                               color-coded Standard         and 14 containers were
                                               Mail as it arrived.          inappropriately tagged.

    Did employees        POM 458.2a and        Observations during          Of 780 observed                Minimal
    apply complete       Best Practices.8      all three tours for the      containers, 143 had
    and accurate                               period October 23-           incomplete color-code
    color codes?                               26, 2006, revealed           tags. The tags did not
                                               that the South Jersey        have the day and or
                                               P&DC did not always          time the mail arrived
                                               include the arrival          written on them.
                                               day or time on the             • 68 containers had
                                               color-code tag.                  no arrival date and
                                                                                time written on the
                                                                                tag (8.72 percent).
                                                                              • 75 containers had
                                                                                no arrival time
                                                                                written on the tag
                                                                                (9.62 percent).

    Did employees        POM 458.321b          From observations of          None                          None
    move the mail        and the               personnel performing
    on a timely          Operations Skills:    mail counts, in
    basis using the      Processing and        general, the P&DC
    FIFO method?         Distribution, Color   was processing mail
                         Code Participant      on a timely basis;
                         Guide, pages 5-7.     however, using the
                                               FIFO method is not
                                               possible when color-
                                               code tags do not
                                               reflect the mail arrival
                                               date and time.


8
 Network Operations Management Service Review of Processing Facilities in the North Florida Jacksonville District,
dated January 2006, discusses best practices for color-coding.




                                                        14
Color-Coding of Standard Mail at the South Jersey                                         NO-MA-07-001
 Processing and Distribution Center



 Action Tested             Criteria           What Was Found                 Exceptions           Impact

 Was the South       POM 458.321b &         We observed               We found that 14 of the   Minimal
 Jersey P&DC         the South Jersey       personnel unloading       780 containers (1.79
 applying the        P&DC Operating         in-bound trailers both    percent) had the wrong
 correct             Plan, Section 9-       before and after the      color-code tag.
 color-code tag      In-Plant               facility's CET (1700
 to mail upon        Operating              hours). All inbound
 arrival?            Parameters.            mail was generally
                                            coded with the
                                            correct
                                            color-code tag.

 Did employees       POM                    Observations during       None                      None
 change the          458.321h(1)(2).        all three tours for the
 color-coded                                period October 23-
 tags after the                             26, 2006, revealed
 initial                                    the South Jersey
 application?                               P&DC did not change
                                            color-code tags on
                                            Standard Mail after
                                            their original
                                            application.

Legend:         FIFO – First In, First Out
                P&DC – Processing and Distribution Center
                POM – Postal Operations Manual
                CET – Critical Entry Time
                MCRS – Mail Condition Reporting System




                                                    15
Color-Coding of Standard Mail at the South Jersey        NO-MA-07-001
 Processing and Distribution Center


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                                    16
Color-Coding of Standard Mail at the South Jersey        NO-MA-07-001
 Processing and Distribution Center




                                                    17
